Memorandum No. D-2010-RAM-009                    June 7, 2010




       Recovery Act Projects at Fort Eustis, Virginia
                 Projects 2146 and 619
Additional Information
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.


Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704
                                INSPECTOR GENERAL
                                DEPARTMENT OF DEFENSE
                                  400 ARMY NAVY DRIVE
                             ARLINGTON, VIRGINIA 22202-4704




                                                                             June 7, 2010


MEMORANDUM FOR AUDITOR GENERAL, DEPARTMENT OF THE ARMY
               COMMANDER, 733 rd MISSION SUPPORT GROUP


SUBJECT: Recovery Act Projects at Fort Eustis, Virginia- Projects 2146 and 619
         (Memorandum No. D-2010-RAM-009)

We are providing this report for your information and use. We conducted this audit
pursuant to Public Law 111-5, "American Recovery and Reinvestment Act of2009,"
February 17,2009. We considered management comments on a discussion draft of the
report when preparing the final report. No additional comments are required.

We appreciate the courtesies extended to the staff. Please direct questions to Mr. Michael
Joseph at (757) 872-4698.




                                             Alice F. Carey
                                             Acting Assistant Inspector General
                                             Readiness, Operations, and Support
Recovery Act Projects at Fort Eustis, Virginia

          Projects 2146 and 619



        (Memorandum No. D-2010-RAM-009)
                   June 7, 2010
                Memorandum No. D-2010-RAM-009 (Project No. D2009LF-0245.000)                                    June 7, 2010




                                              Results in Brief

                                                                FAR clauses and contract reporting requirements in the
What We Did                                                     Recovery Act-awarded task orders. MICC contracting
Our overall objective was to determine whether DOD              personnel also ensured that the contractor met the FAR
appropriately planned and implemented Public Law 111-5,         52.204-11 reporting requirements. For Project 2146,
“American Recovery and Reinvestment Act of 2009                 MICC personnel used Army Operations and Maintenance
(Recovery Act),” February 17, 2009, projects. Specifically,     (O&M) funds instead of Army Recovery Act O&M funds.
we reviewed the planning, funding, execution, and reporting     As a result, DOD did not have reasonable assurance that
of two Recovery Act projects at Fort Eustis, Virginia, to       Recovery Act-fund use was clear and transparent to the
determine whether the efforts of the Mission and Installation   public. Additionally, for Project 619 the MICC personnel
Contracting Command (MICC) and Fort Eustis Directorate          did not post pre-solicitation and award contract notices to
of Public Works (DPW) complied with Recovery Act                the Federal Business Opportunities (FBO) or include the
requirements, Office of Management and Budget (OMB)             correct treasury accounting symbol in the Federal
guidance, the Federal Acquisition Regulation (FAR), and         Procurement Data System (FPDS). As a result, DOD did
DOD implementing guidance.                                      not have reasonable assurance that Recovery Act-fund use
                                                                was clear and transparent to the public.
What We Found
Fort Eustis DPW personnel properly planned and supported        What We Recommend
Project 619, “Mill, Resurface & Restrip Runway, FAAF,”          MICC personnel at Fort Eustis corrected all identified
and Project 2146 “Replace Disabled Access/Wheelchair            deficiencies during the course of our review. Thus, this
Ramp, Bldg 643,” which ensured appropriate use of               report contains no recommendations.
Recovery Act funds. Additionally, Fort Eustis DPW
received Recovery Act funds consistent with OMB guidance.       Management Comments
Finally, Fort Eustis DPW personnel used Recovery Act            Both the MICC personnel and the Fort Eustis DPW
funding for authorized purposes and the projects avoided        personnel agreed with our results and conclusions in the
unnecessary delays and cost overruns. However, MICC             discussion draft report. We do not require any additional
personnel did not include all of the required Recovery Act      comments.




                                                                                                                                i
                    Table of Contents


Results in Brief                          i
Objective                                 1
Recovery Act Background                   2
Project Background                        3
Project 2146                              4
Project 619                              13
Scope and Methodology                    23
Criteria                                 28
Acronyms                                 31
                                    Objective


•	 The primary objective of the audit was to determine whether DOD and its Components
   were planning and implementing the Recovery Act by meeting the requirements in the
   Recovery Act, OMB Memorandum M-09-10, “Initial Implementing Guidance for the
   American Recovery and Reinvestment Act of 2009,” February 18, 2009, and subsequent
   related guidance.

•	 The Recovery Act and implementing OMB guidance require projects to be monitored
   and reviewed. We grouped these requirements in the following four phases:
   (1) planning, (2) funding, (3) execution, and (4) tracking and reporting. For this audit,
   we reviewed all phases for both Recovery Act projects at Fort Eustis, Virginia, to
   determine whether the efforts of MICC and Fort Eustis DPW personnel complied with
   Recovery Act requirements, OMB guidance, the FAR, and DOD implementing
   guidance. See page 23 for a discussion of our scope and methodology.




                                                                                               1
                      Recovery Act Background

The President signed the Recovery Act into law on February 17, 2009. It is an
unprecedented effort to jump-start the economy and create or save jobs.

The purposes of this Act include the following:
     1) To preserve and create jobs and promote economic recovery.
     2) To assist those most impacted by the recession.
     3) To provide investments needed to increase economic efficiency by spurring
        technological advances in science and health.
     4) To invest in transportation, environmental protection, and other infrastructure that
        will provide long-term economic benefits.
     5) To stabilize State and local government budgets, in order to minimize and avoid
        reductions in essential services and counterproductive state and local tax increases.

“. . . the heads of Federal departments and agencies shall manage and expend the funds made
available in this Act so as to achieve the purposes specified . . . including commencing
expenditures and activities as quickly as possible consistent with prudent management.”




                                                                                                2
                        Project Background


•	 This report addresses:
      FSRM Project 2146, “Replace Disabled Access/Wheelchair Ramp,
        Bldg 643,” valued at $10,000
      FSRM Project 619, “Mill, Resurface & Restrip Runway, FAAF,” valued
        at $1.6 million.

•	 The team is also reviewing a military construction Child Development Center
   project at Ft. Eustis. The results of this project will be addressed in a separate
   DOD OIG report.

•	 U.S. Army Audit Agency is also reviewing three Recovery Act projects at Ft.
   Eustis and will issue a report when results are finalized.




                                                                                        3
               Project 2146


“Replace Disabled Access/Wheelchair Ramp, Bldg 643”




                                                      4
New Wheelchair Ramp




                      5
                             Results-Planning

                               Project 2146

Fort Eustis DPW personnel properly planned and supported Project 2146, “Replace
Disabled Access/Wheelchair Ramp, Building 643,” which ensured appropriate use of
Recovery Act funds.


•	 Fort Eustis DPW submitted a DA Form 4283, “Facilities Engineering Work Request,” to
   upgrade the Anderson Field House ramp.

      The project corrects deficiencies in egress requirements in the National Fire
       Protection Association’s “Life Safety Code.”

      An independent Government estimated supported costs.




                                                                                         6
                        Results-Funding

                          Project 2146

Fort Eustis DPW personnel received Recovery Act funds consistent with OMB
guidance.
•	 Fort Eustis DPW personnel received the FAD 0004 for $5.38 million on June
   19, 2009. This allocation included funds for Project 2146.

     The FAD properly identified the Recovery Act appropriation.

     The funding authorization document was consistent with the project
      estimates reported in the Recovery Act DOD Expenditure Plans,
      April 28, 2009.




                                                                               7
                       Results-Project Execution

                              Project 2146

MICC personnel did not include the Recovery Act reporting requirements clause (FAR 52.204-11)
in the delivery order.

•	 MICC contracting officer issued delivery order 0093 against existing contract W91QF104D0005 to
   Pembroke Construction Company, Inc. on May 21, 2009, on a firm-fixed price basis.

•	 MICC personnel competed the original contract and awarded the contract on September 28, 2004,
   prior to the implementation of the Recovery Act.

•	 MICC personnel did not include the reporting requirements clause FAR 52.204-11 in delivery order
   0093. The MICC contracting officer was unaware of the required Recovery Act FAR clauses.

As a result, the contractor was not fully informed of the Recovery Act requirements; and may
not have been aware of, or required to adhere to Recovery Act specific requirements.

Management corrective action:
•	 As a result of the audit, on February 17, 2010, MICC personnel modified the contract to include the
   contractor reporting requirements FAR clause.




                                                                                                         8
                    Results-Project Execution

                    Project 2146 (continued)

Fort Eustis DPW personnel used Recovery Act-funding for authorized purposes, and
the project avoided unnecessary delays and cost overruns.

•	 MICC contracting officer issued delivery order 0093 against existing contract
   W91QF104D0005 to Pembroke Construction Company, Inc. on May 21, 2009.

•	 Fort Eustis DPW personnel accepted Recovery Act Project 2146 on July 8, 2009.

•	 Because the project was under the $25,000 pre-award and $500,000 post-award
   reporting thresholds, the FAR did not require MICC contracting personnel to report
   pre-award or post-award actions to FBO.




                                                                                        9
                     Results-Project Execution

                     Project 2146 (continued)

MICC personnel used Army O&M funds instead of Army Recovery Act O&M funds for Project
2146.
•	 Delivery order 0093 cited a non-Recovery Act O&M Army appropriation (2020) in the accounting
   line.
•	 Director of Resource Management stated that this was an oversight and Fort Eustis DPW should
   have used Recovery Act funds.
•	 Payment voucher shows payment on July 14, 2009, using non-Recovery Act (2020) appropriation.

As a result, DOD did not have reasonable assurance that Recovery Act-fund use was clear and
transparent to the public.
Management corrective action:
•	 The Director of Resource Management and Fort Eustis DPW requested that MICC personnel modify
   the accounting line of the contract to a Recovery Act appropriation.
•	 The effective date of the modification was July 16, 2009.
•	 FPDS showed the modification.
•	 Payment voucher shows the reverse payment from non-Recovery Act (2020) appropriation to
   Recovery Act (2022) appropriation on July 21, 2009.




                                                                                                  10
                Results-Tracking and Reporting

                         Project 2146

MICC contracting personnel ensured that the Pembroke Construction Company,
Inc. (contractor) complied with reporting requirements prescribed in the FAR
52.204-11.


•	 Pembroke Constriction Company, Incorporated, posted the number of jobs and total dollar value
   for the project to the www.federalreporting.gov Web site.




                                                                                                   11
                                    Conclusions

                                    Project 2146

•	 Fort Eustis DPW personnel ensured that Project 2146 to “Replace Disabled Access/Wheelchair
   Ramp, Bldg 643” was properly planned and supported.

•	 Fort Eustis DPW personnel received Recovery Act funds consistent with OMB guidance.

•	 MICC personnel did not include the Recovery Act reporting requirements clause (FAR 52.204-11)
   in the delivery order. However, MICC contracting personnel took corrective action.

•	 Fort Eustis DPW personnel used Recovery Act-funding for authorized purposes and the project
   avoided unnecessary delays and cost overruns.

•	 MICC personnel used Army O&M funds instead of Army Recovery Act funds on Project 2146;
   however, MICC contracting and resource management personnel took corrective action.

•	 MICC contracting personnel ensured that the contractor, Pembroke Construction Company, Inc.,
   met the FAR 52.204-11 reporting requirements.




                                                                                                   12
           Project 619


“Mill, Resurface & Restrip Runway, FAAF”




                                           13
Felker Army Airfield (newly paved)


                                     14
                             Results-Planning

                               Project 619

Fort Eustis DPW personnel ensured that Project 619 “Mill, Resurface & Restrip
Runway, FAAF,” was properly planned and supported to ensure appropriate use of
Recovery Act funds.
•	 Fort Eustis DPW personnel prepared a DA Form 4283, “Facilities Engineering Work
   Request,” October 8, 2008, to mill, resurface and restrip, and add new shoulders to
   Felker Army Airfield.

• Fort Eustis DPW personnel provided a copy of the December 2007, Engineer Research
  and Development Center/Geotechnical and Structures Laboratory report that included a
  pavement condition survey. The report cited the current condition of the runway and
  made recommendations to correct the deficiencies. The report findings justified the
  project.

•	 An independent Government estimate supported costs.

•	 On May 7, 2009, contracting personnel issued delivery order 0091 for the planned work
   against contract W91QF104D0005.



                                                                                           15
                        Results-Funding

                          Project 619

Fort Eustis DPW personnel received Recovery Act funds consistent with
OMB guidance.
•	 Fort Eustis DPW personnel received the FAD 0004 for $5.38 million on
   June 19, 2009. This allocation included funds for Project 619.

     The FAD properly identified the Recovery Act appropriation.

     The funding authorization document was consistent with the project
      estimates reported in the Recovery Act DOD Expenditure Plans,
      March 20, 2009.




                                                                           16
                   Results-Project Execution
                          Project 619
MICC personnel only included one of the required Recovery Act FAR
clauses (FAR 52.222-6 Davis Bacon Act) in the contract or delivery order.

• The MICC contracting officer issued delivery order 0091 against existing contract
  W91QF104D0005 to Pembroke Construction Company, Incorporated, on May 7, 2009,
  on a firm-fixed price basis.

• MICC personnel competed the original contract and awarded it on September 28, 2004,
  prior to the implementation of the Recovery Act.

• The DOD OIG identified several clauses that were missing in the contract and discussed
  this issue with the MICC contracting officer during June 2009 site visit.

• The MICC contracting officer was unaware of the required Recovery Act FAR clauses.




                                                                                           17
                         Results-Project Execution

                          Project 619 (continued)

As a result, the contractor was not fully informed of the Recovery Act requirements
and may not have been aware of, or required to adhere to, Recovery Act specific
requirements.

Management Corrective Action
•	 As a result of the audit, on July 10, 2009, MICC personnel modified the contract and added the
   following FAR clauses in full text:

         FAR 52.203-15, Whistleblower Protection Under the American Recovery and Reinvestment Act of 2009
         FAR 52.204-11, Recovery Act Reporting Requirements
         FAR 52.214-26, Audit and Records – Negotiation (or Sealed Bidding)
         FAR 52.225-21/22/23/24, Required Use of American Iron, Steel, and Manufactured Goods
         Buy American Act – Construction Materials/Trade Agreements




                                                                                                             18
                       Results- Project Execution

                        Project 619 (continued)

MICC personnel did not post a pre-solicitation and award contract notice to the FBO Web site for
informational purposes or include the treasury accounting symbol in the “Description of
Requirements” field when posting award data to the FPDS.

•	 No pre-solicitation and award notices were found on the FBO Web site.
•	 However, the contract obligation was posted to the FPDS Web site and showed “RECOVERY” in
   the description of requirement, but did not include the required treasury accounting symbol.



As a result, DOD did not have reasonable assurance that Recovery Act-fund use was clear and
transparent to the public.

Management corrective action:
•	 As a result of the audit, on November 19, 2009, MICC personnel at Fort Eustis posted the award
   notice on FBO Web site. The contracting office also revised the description posted on the FPDS
   Web site to include the treasury accounting symbol.




                                                                                                    19
                   Results-Project Execution

                    Project 619 (continued)

Fort Eustis DPW personnel used Recovery Act-funding for authorized
purposes and the project avoided unnecessary delays and cost overruns.

•	 The Recovery Act DOD Expenditure Plans, March 20, 2009, estimated Project 619 at
   $1.67 million.

•	 MICC contracting officer issued delivery order 0091 against existing contract
   W91QF104D0005 to Pembroke Construction Company, Incorporated, on May 7, 2009.

•	 Fort Eustis DPW personnel completed and accepted Recovery Act Project 619 on
   October 14, 2009, at a total cost of $1.67 million.




                                                                                      20
                Results-Tracking and Reporting

                          Project 619

MICC contracting personnel ensured that the Pembroke Construction Company,
Incorporated, (contractor) complied with reporting requirements prescribed in the
FAR 52.204-11.

•	 The contractor, Pembroke Construction Company, Inc., posted the number of jobs and total dollar
   value for the project to the www.federalreporting.gov Web site.




                                                                                                     21
                                             Conclusions

                                             Project 619

•   Fort Eustis DPW personnel properly planned and supported Project 619 “Mill, Resurface & Restrip Runway, FAAF.”


•   Fort Eustis DPW personnel received Recovery Act funds consistent with OMB guidance.


•   MICC personnel only included one of the required Recovery Act FAR clauses (FAR 52.222-6 Davis Bacon Act) in the

    contract or delivery order. However, MICC personnel took corrective action.


•   MICC personnel did not post a pre-solicitation and award contract notices to the FBO Web site or include the treasury

    accounting symbol in the “Description of Requirements” field when posting award data to the FPDS. However, MICC

    personnel took corrective action.


•   Fort Eustis DPW personnel used Recovery Act funding for authorized purposes and the project avoided unnecessary

    delays and cost overruns.


•   MICC contracting personnel ensured that the Pembroke Construction Company, Incorporated, (contractor) complied 

    with reporting requirements prescribed in the FAR 52.204-11.


•   Because MICC personnel took corrective action during the audit ,we are not making any recommendations.





                                                                                                                             22
                      Scope and Methodology


•	 We conducted this audit from June 2009 through April 2010 in accordance with
   generally accepted government auditing standards. Generally accepted government
   auditing standards require that we plan and perform the audit to obtain sufficient,
   appropriate evidence to provide a reasonable basis for our conclusions based on our
   audit objectives. We believe that the evidence obtained provides a reasonable basis for
   our conclusions based on our audit objectives.




                                                                                             23
                       Scope and Methodology 

                             (continued)

To review DOD’s implementation of the plans and implementation of the Recovery Act,

we audited the planning, funding, project execution, and reporting of Recovery Act 

projects to ensure MICC and Fort Eustis DPW’s efforts complied with Recovery Act 

requirements, OMB guidance, the FAR, and DOD implementing guidance.

Specifically, we determined whether:


 •	 the selected projects were adequately planned to ensure the appropriate use of

    Recovery Act funds (Planning);

 •	 funds were awarded and distributed in a prompt, fair, and reasonable manner

    (Funding);

 •	 contracts awarded were transparent, competed, and contained required Recovery

    Act FAR clauses (Project Execution); and

 •	 recipients’ use of funds was transparent to the public and the benefits of the funds
    were clearly, accurately, and timely reported (Reporting).




                                                                                           24
                            Scope and Methodology

                                  (continued)

•	 Congress appropriated approximately $12 billion of Recovery Act funds to DOD. The DOD manages
   $7.4 billion in the following programs: Energy Conservation Investment; Facilities Sustainment,
   Restoration, and Modernization; Homeowners Assistance; Military Construction; Near-Term Energy-
   Efficient Technologies. The U.S. Army Corps of Engineers manages $4.6 billion for civil and water
   projects.

•	 The Recovery Act divided the approximately $12 billion among 32 DOD and USACE line items of
   appropriations. OMB Memorandum M-09-10 required the DOD to develop program plans for each of
   the six programs listed above. Each plan identifies the projects funded by the Recovery Act within that
   program.

•	 The Army received $1.5 billion for Recovery Act FSRM projects.

•	 This report addresses:

     FSRM Project 2146, “Replace Disabled Access/Wheelchair Ramp, Bldg 643,” valued at $10,000.

     FSRM Project 619, “Mill, Resurface & Restrip Runway, FAAF,” valued at $1.6 million.




                                                                                                             25
                            Scope and Methodology

                                  (continued)

•   Locations contacted or visited:
        DPW – Fort Eustis, Virginia
        MICC – Fort Eustis, Virginia

•   Documents/records reviewed:
        Army Regulation 420-1, “Army Facilities Management,” March 28, 2009
        DA Form 4283, “Facilities Engineering Work Request”
        DD Form 1155, “Order for Supplies or Services”
        Cost Estimates
        Funding Authorization Documents
        Engineering Division Project Management Standard Operating Procedures
        Project files for requirements, justifications, and funding documentation
        Contracting documentation for:
              Project 2146 contract W91QF104D0005 delivery order 0093
              Project 619 contract W91QF104D0005 delivery order 0091

•   Made observations at the project sites




                                                                                     26
                             Scope and Methodology

                                   (continued)

Use of Computer-Processed Data
We relied on computer-processed data from the FBO Web site, the FPDS – Next Generation, the Central Contractor
Registration, and the Recovery Act FY 2009 Status of Funds Worksheet. FBO is a single, Government-wide point-of­
entry for Federal Government procurement opportunities. FPDS-next generation is a dynamic, real-time database
where contracting officers can update data, to include new actions, modifications, and corrections. The central
contractor registration is the primary registrant database for the U.S. Federal Government that collects, validates,
stores, and disseminates data in support of agency acquisition missions. The Recovery Act FY 2009 Status of Funds
Worksheet is an internally generated excel spreadsheet by the Garrison Resource Manager at Fort Eustis to track
commitments and obligations for projects funded by the Recovery Act. We compared data generated by each system
with the DOD Expenditure Plans, FAD, and contracting documentation to support the audit conclusions. We
determined that the data were sufficiently reliable for the purposes of our report.

Prior Coverage
The Government Accountability Office, the Department of Defense Inspector General, and the Military Departments
have issued reports and memoranda discussing DOD projects funded by the Recovery Act. You can access
unrestricted reports at http://www.recovery.gov/accountability.




                                                                                                                       27
                                           Criteria

   Criteria for planning and implementing the Recovery Act continue to change as OMB issues
   additional guidance, and DOD and the Components issue their implementation guidance.

•	 U.S. House of Representatives Conference Committee Report 111-16, “Making Supplemental
   Appropriations for Job Preservation and Creation, Infrastructure Investment, Energy Efficiency
   and Science, Assistance to the Unemployed, and State and Local Fiscal Stabilization, for the Fiscal
   Year Ending September 30, 2009, and for Other Purposes,” February 12, 2009

•	 Public Law 111-5, “American Recovery and Reinvestment Act of 2009,” February 17, 2009

•	 OMB Memorandum M-09-10, “Initial Implementing Guidance for the American Recovery and
   Reinvestment Act of 2009,” February 18, 2009

•	 OMB Bulletin No. 09-02, “Budget Execution of the American Recovery and Investment Act of
   2009 Appropriations,” February 25, 2009

•	 White House Memorandum, “Government Contracting,” March 4, 2009

•	 White House Memorandum, “Ensuring Responsible Spending of Recovery Act Funds,”
   March 20, 2009




                                                                                                         28
                                                             Criteria

                                                           (continued)

•	        Federal Acquisition Circular 2005-32, March 31, 2009
•	        OMB Memorandum M-09-15, “Updated Implementing Guidance for the American Recovery and
          Reinvestment Act of 2009,” April 3, 2009 1
•	        OMB Memorandum M-09-16, “Interim Guidance Regarding Communications With Registered
          Lobbyists About Recovery Act Funds,” April 7, 2009
•	        OMB Memorandum M-09-19, “Guidance on Data Submission under the Federal Funding
          Accountability and Transparency Act (FFATA),” June 1, 2009
•	        OMB Memorandum M-09-21, “Implementing Guidance for the Reports on Use of Funds
          Pursuant to the American Recovery and Reinvestment Act of 2009,” June 22, 2009 2
•	        OMB Memorandum M-09-24, “Updated Guidance Regarding Communications with Registered
          Lobbyists About Recovery Act Funds,” July 24, 2009
     1	   Document provides Government-wide guidance for carrying out programs and activities enacted in the Recovery Act. The guidance
          states that the President’s commitment is to ensure that public funds are expended responsibly and in a transparent manner to further job
          creation, economic recovery, and other purposes of the Recovery Act.
     2	   Document provides Government-wide guidance for carrying out the reporting requirements included in section 1512 of the Recovery
          Act. The reports will be submitted by recipients beginning in October 2009 and will contain detailed information on the projects and
          activities funded by the Recovery Act.




                                                                                                                                                      29
                                                            Criteria

                                                          (continued)

•	        OMB Memorandum M-09-30, “Improving Recovery Act Recipient Reporting,” September 11,

          2009


•	        OMB Office of Federal Procurement Policy, “Interim Guidance on Reviewing Contractor Reports 

          on the Use of Recovery Act Funds in Accordance with FAR Clause 52.204-11,” September 30,

          2009 2 


•	        OMB Memorandum M-10-08, “Updated Guidance on the American Recovery and Reinvestment 

          Act – Data Quality, Non-Reporting Recipients, Reporting of Job Estimates,” December 18, 2009 2 


•	        OMB Memorandum M-10-14, “Updated Guidance on the American Recovery and Reinvestment 

          Act,” March 22, 2010 2




     2
   Document provides Government-wide guidance for carrying out the reporting requirements included in section 1512 of the Recovery
          Act. The reports will be submitted by recipients beginning in October 2009 and will contain detailed information on the projects and
          activities funded by the Recovery Act.




                                                                                                                                                 30
                     Acronyms


DPW            Directorate of Public Works
FAD            Funding Authorization Document
FAR            Federal Acquisition Regulation
FBO            Federal Business Opportunities
FPDS           Federal Procurement Data System
FSRM           Facilities Sustainment, Restoration, and Modernization
MICC           Mission and Installation Contracting Command
O&M            Operations & Maintenance
OMB            Office of Management and Budget
Recovery Act   American Recovery and Reinvestment Act of 2009




                                                                        31
